USCA4 Appeal: 20-6349

Doc: 24

Filed: 09/28/2020

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6349
ERNEST DONALD WASHINGTON,
Petitioner - Appellant,
v.
TAMMY WILLIAMS, Warden Deerfield Correctional Center; HAROLD
CLARKE, Director of DOC,
Respondents - Appellees.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. Roderick Charles Young, Magistrate Judge. (3:18-cv-00792-RCY)
Submitted: September 24, 2020

Decided: September 28, 2020

Before HARRIS and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Dismissed by unpublished per curiam opinion.
Ernest Donald Washington, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-6349

Doc: 24

Filed: 09/28/2020

Pg:2of2

PER CURIAM:
Ernest Donald Washington seeks to appeal the magistrate judge’s order dismissing
as untimely his 28 U.S.C. § 2254 petition.* See Gonzalez v. Thaler, 565 U.S. 134, 148 &
n.9 (2012) (explaining that § 2254 petitions are subject to one-year statute of limitations,
running from latest of four commencement dates enumerated in 28 U.S.C. § 2244(d)(1)).
The order is not appealable unless a circuit justice or judge issues a certificate of
appealability. 28 U.S.C. § 2253(c)(1)(A). A certificate of appealability will not issue
absent “a substantial showing of the denial of a constitutional right.”

28 U.S.C.

§ 2253(c)(2). When, as here, the magistrate judge denies relief on procedural grounds, the
prisoner must demonstrate both that the dispositive procedural ruling is debatable and that
the petition states a debatable claim of the denial of a constitutional right. Gonzalez, 565
U.S. at 140-41 (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Washington has not
made the requisite showing.

Accordingly, we deny Washington’s motions for an

evidentiary hearing, deny a certificate of appealability, deny leave to proceed in forma
pauperis, and dismiss the appeal. We dispense with oral argument because the facts and
legal contentions are adequately presented in the materials before this court and argument
would not aid the decisional process.
DISMISSED

* The parties consented to the magistrate judge’s jurisdiction. 28 U.S.C. § 636(c).
2

USCA4 Appeal: 20-6349

Doc: 33

Filed: 02/04/2021

Pg: 1 of 1

FILED: February 4, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6349
(3:18-cv-00792-RCY)
ERNEST DONALD WASHINGTON
Petitioner - Appellant
v.
TAMMY WILLIAMS, Warden Deerfield Correctional Center; HAROLD
CLARKE, Director of DOC
Respondents - Appellees

ORDER
Upon consideration of appellant’s motion to reconsider the order denying his
petition for rehearing as untimely, the court denies the motion.
For the Court
/s/ Patricia S. Connor. Clerk

Case 3:18-cv-00792-RCY Document 36 Filed 02/25/20 Page 1 of 8 PagelD# 180

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division

FEB 25 2020

'RitkiSTO00^

ERNEST DONALD WASHINGTON,
Petitioner,
v.

Civil Action No. 3:18CV792

TAMMY WILLIAMS, et al.,
Respondents.
MEMORANDUM OPINION
Ernest Donald Washington, a Virginia state prisoner proceeding pro se, brings this petition
pursuant to 28 U.S.C. § 2254 (“§ 2254 Petition,” ECF No. 5)1 challenging his convictions in the
Circuit Court for the County of Stafford, Virginia (“Circuit Court”). Respondents move to dismiss,
inter alia, on the ground that the one-year statute of limitations governing federal habeas petitions
bars the § 2254 Petition. Washington has responded. For the reasons set forth below, the Motion
to Dismiss (ECF No. 24) will be GRANTED.
I. PROCEDURAL HISTORY
On September 28, 2010, following a jury trial, Washington was convicted of “six counts
of attempted indecent liberties” and “five counts of use of a computer to expose his genital parts
to a person he had reason to believe was a child.” (ECF No. 26-2, at 1 (citation omitted).) The
Circuit Court sentenced Washington to eighty years of imprisonment. (See id.)
Washington appealed. (See ECF No. 26-1, at 1.) On August 9,2011, the Court of Appeals
of Virginia denied Washington’s petition for appeal. (Id. at 3.) Washington pursued a further

i

ii

The Court employs the pagination assigned to the parties’ submissions by the CM/ECF docketing
system. The Court corrects the spacing, capitalization, punctuation, spelling, and various
abbreviations in the quotations from Washington’s submissions.

Case 3:18-cv-00792-RCY Document 36 Filed 02/25/20 Page 2 of 8 PagelD# 181

appeal to the Supreme Court of Virginia. See Washington v. Commonwealth, No. 111639, at 1
(Va. May 3,2012). On May 3,2012, the Supreme Court of Virginia refused Washington’s petition
for appeal. Id. Thereafter, on July 20,2012, the Supreme Court of Virginia denied Washington’s
“request for an extension of time to file an amended petition for rehearing in [the] case.”
Washington v. Commonwealth, No. 111639, at 1 (Va. July 20, 2012).
On January 2, 2013, Washington filed a petition for a writ of habeas corpus in the Circuit
Court. {See ECF No. 26-2, at 2.) On September 16,2014, the Circuit Court denied Washington’s
state habeas petition. (ECF No. 26-2, at 7-8.) Washington failed to properly perfect an appeal to
the Supreme Court of Virginia. See Washington v. Commonwealth, No. 1477-16-4, at 1 (Va. Ct.
App. Dec. 2,2016).2
On January 22,2015, Washington filed his first federal petition for a writ of habeas corpus
(“First § 2254 Petition”).3 See First § 2254 Pet. 14, Washington v. Beale, No. 3:15CV69-HEH
(E.D. Va. filed Jan. 22, 2015), ECF No. 1. Subsequently, on June 22, 2015, Washington filed a
Motion to Withdraw his First § 2254 Petition. {See ECF No. 26-3, at 1.) By Memorandum
Opinion and Order entered on July 13,2015, the Court granted Washington’s Motion to Withdraw
and dismissed the action without prejudice. {Id. at 1-2.)

2 Washington twice attempted to appeal the Circuit Court’s denial of his state habeas petition by
filing a notice of appeal with the Virginia Court of Appeals, rather than the Supreme Court of
Virginia. However, neither notice of appeal was timely filed “thereby preventing [the Court of
Appeals of Virginia] from transferring the case to the Supreme Court of Virginia.” Washington v.
Commonwealth, No. 1477-16-4, at 1 & n.l (Va. Ct. App. Dec. 2,2016).
3 This is the date that Washington states that his First § 2254 Petition was deposited in the prison
mailing system. See First § 2254 Pet. 14, Washington v. Beale, No. 3:15CV69-HEH (E.D. Va.
filed Jan. 22,2015), ECF No. 1. The Court deems Washington’s First § 2254 Petition to be filed
as of this date. See Houston v. Lack, 487 U.S. 266, 276 (1988).
2

Case 3:18-cv-00792-RCY Document 36 Filed 02/25/20 Page 3 of 8 PagelD# 182

On November 6, 2018, Washington filed the instant § 2254 Petition. (ECF No. 1, at 3.)4
In his § 2254 Petition, Washington asserts the following claims for relief:
Claim One:

“[The Circuit] Court lack[ed] jurisdiction: No evidence connected
[Washington] to any evidence produced] by [the] Commonwealth.”
“No communication device was taken from [Washington] to
connect him with the charges and no search and seizure was done.
Trial transcript shows that [the Circuit] Court had no jurisdiction
and law office[r] testified that] he had no jurisdiction to arrest
[Washington].” (§ 2254 Pet. 5.)

Claim Two:

Trial counsel rendered ineffective assistance because “[t]rial
counsel did no investigation for [an] alibi defense, call[ed] no
witnesses, failed to file any motions, failed to object to all
inadmissible evidence (hearsay evidence), trial counsel relied on
[the] Commonwealth’s investigation, [trial counsel filed] no motion
to suppress any evidence, trial counsel refused to do appeal, [and]
counsel fail[ed] to perform any pretrial functions.” {Id. at 7.)

Claim Three: Appellate counsel rendered ineffective assistance because “both
counsels failed to bring up [the following] reviewable claims”: “No
computer was seized for evidence, no search and seizure warrant, no
search of the crime scene, no chain of custody, no printout date on
any documents, no court order, unsign[ed] discovery, no adequate
foundation to show evidence, no nexus, hearsay testimony,
inadequate legal representation, no IP address belonging to
[Washington], no evidence the profile was made by [Washington].”
{Id. at 8.)
Claim Four:

“No adequate evidentiary] foundation was set, no forensic
technician to prove accuracy of evidence,” “[n]o computergenerated evidence, no dates on evidence documents, no equipment
standard was brought up, plain error, transcript of trial printout
software program wasn’t rais[ed], no computer evidence from
[Washington] to show if he had an electronic device to connect him
with the charges.” {Id. at 10.)

4 This is the date on which Washington signed the instant § 2254 Petition and the date on which
the United States Postal Service processed the envelope containing the § 2254 Petition. {See ECF
No. 1, at 3; ECF No. 1-1, at 1.)
3

Case 3:18-cv-00792-RCY Document 36 Filed 02/25/20 Page 4 of 8 PagelD# 183

II. ANALYSIS
A.

Statute of Limitations

Respondents contend that the federal statute of limitations bars Washington’s claims.
Section 101 of the Antiterrorism and Effective Death Penalty Act (“AEDPA”) amended 28 U.S.C.
§ 2244 to establish a one-year period of limitation for the filing of a petition for a writ of habeas
corpus by a person in custody pursuant to the judgment of a state court. Specifically, 28 U.S.C.
§ 2244(d) now reads:
1.

2.

A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State
court. The limitation period shall run from the latest of—
(A)
the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;
(B)
the date on which the impediment to filing an application
created by State action in violation of the Constitution or
laws of the United States is removed, if the applicant was
prevented from filing by such State action;
(C)
the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has
been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D)
the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise
of due diligence.
The time during which a properly filed application for State post-conviction
or other collateral review with respect to the pertinent judgment or claim is
pending shall not be counted toward any period of limitation under this
subsection.

28 U.S.C. § 2244(d).
B.

Commencement and Running of the Statute of Limitations

Under 28 U.S.C. § 2244(d)(1)(A), Washington’s conviction became final on October 18,
2012,5 when the time to file a petition for a writ of certiorari expired. See Hill v. Braxton, 277
5

On July 20,2012, the Supreme Court of Virginia denied Washington’s “request for an extension
of time to file an amended petition for rehearing in [the] case.” Washington v. Commonwealth,
4

Case 3:18-cv-00792-RCY Document 36 Filed 02/25/20 Page 5 of 8 Page ID# 184

F.3d 701,704 (4th Cir. 2002) (“[T]he one-year limitation period begins running when direct review
of the state conviction is completed or when the time for seeking direct review has expired ...
(citing 28 U.S.C. § 2244(d)(1)(A))); Sup. Ct. R. 13(1) (requiring that a petition for certiorari be
filed within ninety days of entry ofjudgment by state court of last resort or of the order denying
discretionary review).
The statute of limitations began running on October 19, 2012. Seventy-five days of the
limitation period expired before Washington filed his state petition for a writ of habeas corpus on
January 2, 2013. (See ECF No. 26-2, at 2); see also 28 U.S.C. § 2244(d)(2). The statute of
limitations began running again on September 17,2014, the day after the Circuit Court dismissed
Washington’s state petition for a writ of habeas corpus. (See ECF No. 26-2, at 7-8.) On January
22, 2015, Washington filed his First § 2254 Petition in this Court. See First § 2254 Pet. 14,
Washington v. Beale, No. 3:15CV69-HEH (E.D. Va. filed Jan. 22,2015), ECF No. 1. Thereafter,
Washington moved to withdraw his First § 2254 Petition (see ECF No. 26-3, at 1), and by
Memorandum Opinion and Order entered on July 13, 2015, the Court granted Washington’s
Motion to Withdraw and dismissed the action without prejudice. (Id at 1-2.)
However, because “an application for federal habeas corpus review is not an ‘application
for State post-conviction or other collateral review’ within the meaning of 28 U.S.C.
§ 2244(d)(2),” Washington’s First § 2254 Petition did not toll the limitation period. Duncan v.
Walker, 533 U.S. 167, 181 (2001). Therefore, after the limitation period began to run again on
September 17,2014, two hundred and ninety-three days later, on July 6,2015, the limitation period

No. 111639, at 1 (Va. July 20,2012). Thereafter, Washington did not pursue any further review
in the Supreme Court of Virginia. For the purposes of calculating the limitation period in this case,
the Court assumes, without deciding, that the Supreme Court of Virginia’s July 20, 2012 Order
constituted the final order denying discretionaiy review in the state court. See Sup. Ct. R. 13(1).
5

Case 3:18-cv-00792-RCY Document 36 Filed 02/25/20 Page 6 of 8 PagelD# 185

expired.6 Washington filed the instant § 2254 Petition on November 6, 2018, more than three
years after the expiration of the limitation period. Accordingly, the statute of limitations bars the
§ 2254 Petition.
C.

Belated Commencement Under 28 U.S.C. § 2244(d)(1)(D)

Washington contends that he is entitled to a belated commencement of the limitation period
under 28 U.S.C. § 2244(d)( 1 )(D). (See § 2254 Pet. 13.) In support of that contention, Washington
argues: “I leam[ed] about the due diligence in studying my own case and ask for a certificate of
appealability so I can correct the errors that were made in my first habeas [petition], which I did
not know how to do. The main claims were not brought up.” (Id)
Under 28 U.S.C. § 2244(d)(1)(D), a petitioner may be entitled to a belated commencement
of the limitation period to “the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.” 28 U.S.C. § 2244(d)(1)(D).
“[T]he petitioner bears the burden of proving that he exercised due diligence, in order for the
statute of limitations to begin running from the date he [or she] discovered the factual predicate of
his claim, pursuant to 28 U.S.C. § 2244(d)(1)(D).” DiCenzi v. Rose, 452 F.3d 465,471 (6th Cir.
2006) (citing Lott v. Coyle, 261 F.3d 594, 605-06 (6th Cir. 2001)). A habeas applicant who
“merely alleges that [he or she] did not actually know the facts underlying his or her claim does
not” thereby demonstrate due diligence. In re Boshears, 110 F.3d 1538, 1540 (11th Cir. 1997).
Rather, to obtain a belated commencement of the limitation period, the applicant must explain why
a reasonable investigation would not have unearthed the facts prior to the date under which the

6 The limitation period ran for seventy-five days before Washington filed his state habeas petition.
After the Circuit Court dismissed Washington’s state habeas petition, the limitation period began
to run again on September 17,2014, and ran for two hundred and ninety days until Friday, July 3,
2015. However, Friday, July 3,2015 was the observed federal holiday for Independence Day. As
such, the limitation period expired three days later on Monday, July 6,2015.
6

Case 3:18-cv-00792-RCY Document 36 Filed 02/25/20 Page 7 of 8 PagelD# 186

limitation period commenced under 28 U.S.C. § 2244(d)(1)(A). See id. at 1540-41 (rejecting
petitioner’s assertion that he could not have discovered his new Brady claim prior to filing his first
§ 2254 petition).
Here, Washington presents claims regarding the Circuit Court’s lack of jurisdiction over
his case, the sufficiency of the evidence, and the ineffectiveness of trial counsel and appellate
counsel. (See § 2254 Pet. 5, 7, 8, 10.) To qualify for belated commencement under 28 U.S.C.
§ 2244(d)(1)(D), Washington must demonstrate that a reasonable investigation would not have
unearthed the factual predicates of these claims until after his conviction became final on October
18, 2012. At the latest, Washington was aware of the facts underlying all of his claims at the
conclusion of his direct appeal on July 20,2012. Washington fails to provide any facts or argument
to suggest that he acted with due diligence.
Furthermore, in his Response to the Motion to Dismiss, Washington vaguely suggests that
“[a]U the claims fall under a fundamental miscarriage of justice” and “a fundamental miscarriage
of justice is shorthand for a situation where a constitutional violation [resulted] in the conviction
of one [who] is actually innocent of the substantive offense.” (ECF No. 32, at 9-10 (citation
omitted) (internal quotation marks omitted)). However, Washington fails to tender any new
reliable evidence of his innocence or otherwise coherently demonstrate why his § 2254 Petition
should be deemed timely filed. See Hill v. Johnson, No. 3:09cv659, 2010 WL 5476755, at *5
(E.D. Va. Dec. 30, 2010) (citing Weeks v. Bowersox, 119 F.3d 1342, 1352-53 (8th Cir. 1997);
Feaster v. Beshears, 56 F. Supp. 2d 600,610 (D. Md. 1999)); see also Calderon v. Thompson, 523
U.S. 538, 559 (1998) (citation omitted) (emphasizing that actual innocence means factual
innocence and not just legal insufficiency). Accordingly, the § 2254 Petition is barred by the
statute of limitations.

7

Case 3:18-cv-00792-RCY Document 36 Filed 02/25/20 Page 8 of 8 PagelD# 187

III. WASHINGTON’S MOTION TO AMEND
On May 6, 2019, Washington Filed a Motion to Amend seeking leave of Court to add an
attachment to his § 2254 Petition. (ECF No. 34.) Washington submitted the proposed attachment,
which consisted of pages from the trial transcript, as an exhibit to his motion. (ECF No. 34-1.)
Subsequently, Washington filed a Supplement to his § 2254 setting forth additional facts and
argument to support Claim One. (ECF No. 35, at 1-2.) Washington’s Motion to Amend (ECF
No. 34) will be GRANTED to the extent that the Court will consider Washington’s attachment.
The Court will also consider Washington’s Supplement to his § 2254 Petition. Nevertheless, the
Motion to Amend and the subsequent Supplement have no impact on the conclusion that the § 2254
Petition is barred by the relevant statute of limitations.
IV. CONCLUSION
For the foregoing reasons, Washington’s Motion to Amend (ECF No. 34) will be
GRANTED. Respondents’ Motion to Dismiss (ECF No. 24) will be GRANTED. Washington’s
§ 2254 Petition (ECF No. 5) will be DENIED. The action will be DISMISSED. A certificate of
appealability will be DENIED.7
An appropriate Final Order shall issue.

li

/s/
Roderick C. Young
United States Magistrate Jud|

Date: February*?2020
Richmond, Virginia

7 An appeal may not be taken from the final order in a § 2254 proceeding unless a judge issues a
certificate of appealability (“COA”). 28 U.S.C. § 2253(c)(1)(A). A COA will not issue unless a
prisoner makes “a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). This requirement is satisfied only when “reasonable jurists could debate whether
(or, for that matter, agree that) the petition should have been resolved in a different manner or that
the issues presented were ‘adequate to deserve encouragement to proceed further.’” Slack v.
McDaniel, 529 U.S. 473,484 (2000) (quoting Barefoot v. Estelle, 463 U.S. 880,893 & 4 (1983)).
Washington fails to meet this standard.
8

